CONGRESSIONAL RESPONSE
       REPORT


   Employer Feedback on the
 Social Security Administration’s
      Verification Programs

           A-03-06-26106




           December 2006
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                            SOCIAL SECURITY
                                   December 14, 2006



The Honorable Jim McCrery
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. McCrery:

I am pleased to provide you with the enclosed report addressing your April 7, 2006
letter, requesting information related to the employee verification programs administered
by the Social Security Administration (SSA) and the Department of Homeland Security
(DHS). This report contains information related to the experience of employers who
have used the Social Security Number Verification Service and the Basic Pilot program.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. To ensure DHS
is aware of the information provided to your office, we are forwarding a copy of this
report to the Inspector General for DHS.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                                                                            Background
OBJECTIVE
Our objective is to assess employers’ satisfaction with the Social Security
Administration’s (SSA) verification programs.

BACKGROUND
To assist employers with accurate wage reporting, 1 in June 2005 SSA implemented the
Social Security Number Verification Service (SSNVS), which is an on-line program that
allows employers to validate the names and Social Security numbers (SSN) of
employees. 2 The purpose of SSNVS is to ensure employees’ names and SSNs match
SSA records prior to the submission of their Wage and Tax Statements (Form W-2) to
SSA. 3 After applying to use SSNVS, employers can either verify up to 10 names and
SSNs (per screen) on-line and receive immediate results or upload batch files of up to
250,000 names and SSNs and usually receive results the next Government business
day. SSNVS allows employers to have multiple users registered to use the service on
their behalf. As of Calendar Year (CY) 2005, there were approximately 21,000
registered users of SSNVS representing about 19,600 employers. In CY 2005, SSNVS
processed over 25.7 million verifications for about 12,000 employers. See Appendix B
for more information on SSNVS.

SSA also participates with the Department of Homeland Security (DHS) in the Basic
Pilot program, a verification service that validates newly-hired employees’ employment-
authorization. Participating employers register on-line with DHS to use the automated
system. The information the employer submits to DHS is sent to SSA to verify that the
SSN, name, and date of birth (DoB) match SSA’s records. SSA also provides DHS with
U.S. citizenship information, as recorded in SSA records. When SSA records indicate
U.S. citizenship and the employee has alleged U.S. citizenship, employment
authorization is confirmed. DHS confirms the current employment-authorization for
noncitizens. As of Fiscal Year (FY) 2005, there were about 14,000 registered users of
the Basic Pilot representing about 8,000 employers. In FY 2005, the Basic Pilot


1
 The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A), requires SSA to maintain records of
wage amounts employers pay to individuals.
2
  SSNVS is one of the services offered by SSA’s Business Services Online (BSO). BSO is a suite of
Internet services for businesses and employers to exchange information with SSA. For further
information, see the BSO homepage at www.socialsecurity.gov/bso/bsowelcome.htm.
3
  While our focus in this report is on-line verification programs, SSA also offers other forms of employee
verification. For instance, employers can register for the Agency’s Employee Verification Service (EVS)
for Registered Employers, which allows employers to submit employee names/SSNs via paper or
magnetic media. SSA also allows employers to verify up to 5 names/SSNs via a toll-free number, or
submit a paper listing to the local Social Security office to verify up to 50 names/SSNs.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                             1
processed about 980,000 verifications for approximately 3,700 employers. See
Appendix C for more information on the Basic Pilot.

CHARACTERISTICS OF SAMPLE EMPLOYERS
We interviewed program users at 100 employers—50 each from SSNVS and the Basic
Pilot—to assess their satisfaction with the 2 programs. 4 We concentrated on those
employers that submitted a large volume of verification requests during 2004 and 2005. 5
The 100 employers were in industries such as temporary employment, service, food,
retail, and government. 6 See Tables 1 and 2 for a complete listing of the industries.

Social Security Number Verification Service

During CYs 2004 and 2005, the 50 sample SSNVS employers submitted verification
requests ranging from about 65,000 to 5.3 million. 7 In total, these employers submitted
approximately 18.3 million of the 33 million verification requests, or 55 percent, during
the 2-year period. Of the 18.3 million verification requests, about 1.8 million items could
not be verified, and the employers received responses such as “SSN is not in file” or
“Name does Not Match.” Furthermore, the 50 employers had 1 to 12 users registered
to use SSNVS on their behalf. We attempted to interview the registered user that
submitted the largest volume of verification requests at each of the 50 employers.

            Table 1: Verification Statistics for 50 Sample SSNVS Employers
                             (Calendar Years 2004 and 2005)
                                                                                            Total
           Employer                 Number             Total          Total Verified     Unverified
           Industry              of Employers      Verifications          Items             Items
    Service                           20            4,052,567          3,838,211           221,144
    Retail                            10            1,700,919          1,630,653            70,844
    Government                         7            9,062,335          8,610,926         1,237,385
    Temporary Employment               5            2,440,850          2,188,842           257,098
    Manufacturing                      3              239,551            235,000              5,442
    Restaurant                         2              245,460            232,928            12,566
    Transportation                     2              166,019            164,355              2,519
    Entertainment                      1              369,007            363,913              5,231
    Total                             50           18,276,708         17,264,828         1,812,229



4
 We contacted two users employed at the same company, one using SSNVS and the other using the
Basic Pilot, because the employer submitted a large volume of verification requests under each program.

5
 The verification data for the two programs covered two different periods since SSA captures SSNVS
data by CY and DHS captures the Basic Pilot data by FY.
6
 Since the employers were selected based on volume of verifications, our findings in this report may not
be representative of all SSNVS and Basic Pilot users.

7
  Prior to June 2005, SSNVS was a pilot that was restricted to a limited number of employers. We found
that 8 of the 50 sample employers participated in the pilot.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                           2
    Note: Total Verifications do not equal the sum of Total Verified Items and Total Unverified Items since
          (a) death indicator responses are treated differently in the batch process versus the online
          process (only the batch process treats a death indicator as an unverified item) and
          (b) resubmissions are not included in the Total Verifications but are included in the other two
          totals.

Basic Pilot Program

During FYs 2004 and 2005, the 50 sample Basic Pilot employers submitted verification
requests ranging from about 2,800 to 65,000. As shown in Table 2, these employers
submitted approximately 485,000 of the 1.7 million verification requests, or 28 percent,
during the 2-year period. 8 Of the 485,000 verification requests submitted by the
50 employers, SSA verified 384,000 individuals, or 79 percent, as authorized to work.
SSA provided tentative nonconfirmation responses for about 70,000 individuals, or
15 percent. For these cases, the reported information did not match SSA records due
to (1) invalid SSNs, (2) unmatched names and/or DoBs, (3) dates of death on file, or
(4) citizenship status could not be confirmed. The remaining 31,000 items (6 percent)
were referred to DHS for employment authorization. In these remaining cases, the
names and SSNs matched SSA records, but DHS had to verify the noncitizens’ current
work authorization. Further, the 50 employers had more than one user registered under
the Basic Pilot on their behalf. We found the number of registered users ranged from
3 to 2,433. 9 We attempted to interview the registered user that submitted the largest
volume of verification requests at each of the 50 employers.

            Table 2: Verification Statistics for 50 Sample Basic Pilot Employers
                                (Fiscal Years 2004 and 2005)
                                                                                  Total SSA
                                                Total            Total          Tentative Non-        Total
                               Number of     Verification     Employment         Confirmation       Referred
      Employer Industry        Employers      Requests         Authorized         Responses          to DHS
    Temporary employment          27             285,045            223,398              45,164        16,483
    Food industry                 11             127,664            105,966              10,921        10,777
    Service                        4               14,830            11,327               2,412         1,091
    Restaurant                     3               29,458            19,809               8,922           727
    Hotel                          2               11,317             9,783                 934           600
    Agriculture                    1                6,773             5,521                 500           752
    Construction                   1                6,312             5,285                 593           434
    Government                     1                3,452             2,884                 368           200
    Total                         50             484,851            383,973              69,814        31,064
    Percentage                                      100%               79%                 15%            6%
    Note:   SSA Tentative Nonconfirmation Responses relate to SSA data only. If an SSA Tentative
            Nonconfirmation Response is later resolved by the employee and the work authorization is still in
            question, the employee’s information is referred to DHS for further verification. We provide more
            information on the overall verification process in Appendix C. We discussed the employers’
            responses to SSA and DHS nonconfirmation responses in the body of the report.

8
    See Appendix C for details on the verification statistics for the Basic Pilot for FYs 2004 and 2005.
9
  The employer with 2,433 registered users is a national temporary employment agency that has offices
located throughout the United States.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                              3
                                                            Results of Review
Overall, a majority of the SSNVS and Basic Pilot users we interviewed rated their
satisfaction with the programs as “Excellent,” “Very Good,” or “Good.” In addition, many
of the SSNVS employers verified their entire payroll, which SSA encourages to ensure
accurate wage reporting. However, we found that approximately 42 percent of the
Basic Pilot users we interviewed were not using the program as intended. While the
Basic Pilot requires employers to verify the employment authorization of newly-hired
employees within 3 days after they are hired, some users indicated their employers
conducted the verifications before hiring individuals. Most of the users in our review
stated their employers took the appropriate actions when they received unverified
responses from SSNVS and nonconfirmation responses from the Basic Pilot, such as
notifying affected employees about unverified results and terminating employees when
they declined to contest tentative nonconfirmation responses or received final
nonconfirmation responses from the Basic Pilot. However, a number of users reported
problems in using each of the programs. Finally, at least 40 percent of the users
interviewed under each program indicated their employers used multiple programs or
services to verify the names and SSNs of their employees.

OVERALL SATISFACTION WITH THE PROGRAM
We found that 92 percent of the SSNVS users and 100 percent of the Basic Pilot users
interviewed rated the programs as “Excellent,” “Very Good,” or “Good.” In addition, at
least 98 percent of the users from both programs indicated their employers were very
likely to continue using the programs.

Social Security Number Verification Service

Of the 50 SSNVS users we interviewed, about 92 percent (46 users) rated the
application, verification, and feedback phases of SSNVS as “Excellent,” “Very Good,” or
“Good.”10 The users believed SSNVS was an effective and reliable tool for verifying
employees’ names and SSNs. For example, one user stated, “SSNVS was easy to use
and it met their needs.” The remaining 8 percent (4 users) rated the application or
verification phases of SSNVS as “Fair.” One user representing an employer in the retail
industry explained that SSNVS would have been more beneficial to his company if it
allowed batch submissions because his company employed over 100,000 employees.
This user appeared to be unaware that SSNVS allowed employers to upload files
containing up to 250,000 employee names and SSNs at a time for verification. 11

10
  These results were similar to those reported in a July 2004 study conducted by SSA’s Office of Quality
Assurance and Performance Assessment (OQA), now the Office of Quality Performance. In that study,
93 employers rated their experience with SSNVS as “Excellent,” “Very Good,” or “Good.” See OQA,
Findings from the Social Security Number Verification Service (SSNVS) Users Survey-INFORMATION,
July 2004.
11
     The remaining three employers did not indicate why they rated the program as “Fair.”


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                           4
Furthermore, 49 of 50 users indicated they were very likely to continue using SSNVS.
Only the user who was unaware that SSNVS accepted batch files indicated his
employer might discontinue use of the program. We informed this user that SSA
accepted batch files and he stated he would investigate the matter.

Although a majority of the users were satisfied with SSNVS, a few users suggested
changes to the program. One user in the retail industry stated his company would like
to be informed when a transposed SSN is submitted for verification. According to SSA
staff, the Agency decided not to provide corrected SSNs through SSNVS because of
the concern with disclosing a valid name/SSN combination on-line. 12

Another user from a government agency commented that he would like to conduct a
mass correction of employee records related to unverified responses received from
SSNVS. The user explained his employer had received numerous unverified responses
that could not be timely resolved because the employees were located overseas. Due
to the location of the employees, they were not able to seek SSA assistance in resolving
the unverified responses. 13 The user stated it would be beneficial for his employer to
meet with SSA officials so they could develop a process to resolve these types of
discrepancies.

Basic Pilot Program

All 50 Basic Pilot users we interviewed rated the application, verification, and feedback
phases of the Basic Pilot as “Excellent,” “Very Good,” or “Good.” One user commented
the program was “great and it met their needs.” While 98 percent (49 users) indicated
they would continue using the program, only 1 user indicated his company had decided
to stop using the Basic Pilot. The user could not explain why the fast food restaurant
had decided to discontinue using the Basic Pilot, and we did not find any evidence that
the employer was registered to use other SSA verification programs or services.

Furthermore, one user who had rated the Basic Pilot as “Excellent” indicated that a
potential weakness of the Basic Pilot is the failure to detect identity fraud. The user
noted that he did not always have assurance the individuals who walked into his office
were in fact the individuals issued the employment authorization documents. The user
suggested the Basic Pilot program provide employers with additional information, such




12
   The Agency’s Employee Verification Service (EVS) for Registered Users will inform employers, in some
cases, when they have provided a transposed SSN by providing them with the correct SSN. Under this
program, the Agency runs the Single Select edit process, which generates 89 possible SSNs based on
the input SSN and then attempts to match the input data to the database of assigned SSNs. If only one
item matches, EVS will provide the employer with the corrected SSN. If more than one item matches,
then EVS informs the employer the name and SSN does not match SSA’s records.
13
   To resolve the no-match responses, SSA instructs employers to tell their employees to visit a local field
office.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                           5
as prior employment history, to assist employers in verifying that the person in front of
them is actually the numberholder and is authorized to work. 14

SSNVS EMPLOYER VERIFICATION PRACTICES
We found 45 of the 50 SSNVS users we interviewed, or 90 percent, indicated that their
employers verified the names and SSNs of their entire payroll. About two thirds of
these users (30 users) stated their employers conducted the verifications on a weekly,
monthly, or quarterly basis. 15 SSA encourages employers to run their entire payroll to
improve overall wage reporting. Moreover, by verifying the entire payroll, it allows SSA
to properly credit employees' earnings records, which will be important information in
calculating their future Social Security benefits. The remaining five users reported that
their employers used SSNVS to verify the names and SSNs of new or existing
employees, but not both. However, several of these employers used other SSA
programs or services for employer verification, as discussed later in the report.

USE OF THE BASIC PILOT PROGRAM
We learned that a significant number of the Basic Pilot employers in our sample verified
individuals outside the scope of the signed agreement between the employer, SSA and
DHS. The agreement requires that employers use the program to verify the
employment authorization of newly-hired employees within 3 days of being hired, but we
found that 42 percent of users reported that their employers conducted verifications
before hiring individuals, and 30 percent conducted verifications of existing employees.

Potential Pre-Employment Screening of Individuals

According to 21 of the 50 Basic Pilot users, or 42 percent, their employers were
conducting verifications before hiring individuals, which is a form of pre-employment
screening. The Memorandum of Understanding (MOU) signed by employers, SSA and
DHS when the employer agrees to participate in the Basic Pilot program, prohibits
employers from using the Basic Pilot as a pre-screening tool. Specifically, it states, “the
employer agrees not to use the Basic Pilot procedures for pre-employment screening of
job applicants” and “employers are prohibited from initiating verification procedures
before the employee has been hired.” Seven users from the temporary employment
industry and one user from the food industry admitted their companies would not hire
individuals when their employment authorization could not be confirmed through the
Basic Pilot. A similar finding was reported in a January 2002 Immigration and




14
  Such disclosure of prior employment history under the Basic Pilot would most likely be restricted under
the Privacy Act of 1974 (5 U.S.C. § 552a as amended) and Section 6103 of the Internal Revenue Code
(26 U.S.C. § 6103), which limit the amount of personal information that can be disclosed.
15
     We did not independently verify these statements.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                        6
Naturalization Service (INS) evaluation of the Basic Pilot program. 16 The report noted
that some employers were using the Basic Pilot to pre-screen job applicants. The
report stated that 28 percent of individuals who had received a tentative
nonconfirmation from the Basic Pilot program did not receive a job offer from the
employers.

Verification of Existing Employees

About 30 percent (15 users) of the Basic Pilot users we interviewed admitted they had
verified the employment authorization of existing employees. Users in the temporary
employment industry stated their companies’ policies were to re-verify the employment
authorizations of existing employees after a certain period of time (6 months to 2 years).
A user in the service industry admitted his company verified the employment
authorization of its clients’ existing employees as part of background investigations.
The MOU prohibits employers from verifying the employment authorization of existing
employees. Specifically, it states that “the employers agree not to use the Basic Pilot
for re-verification or for employees hired before the date of the MOU is in effect.“

We could not determine whether these employers misunderstood the Basic Pilot
requirements or just simply ignored the policy. DHS tried to address employers’
confusion about the Basic Pilot requirements when they developed a web-based
tutorial. As employers register for the Basic Pilot, they must review the tutorial to help
them become familiar with the program’s policies and procedures. However, to ensure
compliance with the Basic Pilot requirements, DHS would need to monitor employers’
use of the program. 17 If DHS determines this practice of verifying pre-employment
individuals or existing employees should be allowable, DHS may need to seek
legislative changes to include this practice. 18

UNVERIFIED RESPONSES
Many of the users we interviewed stated their employers took appropriate actions when
they received unverified responses from SSNVS and nonconfirmation responses from
the Basic Pilot. We found 40 of the SSNVS users we interviewed, or 80 percent,
indicated they verified unmatched data with employees, compared unmatched data with
personnel records, or contacted SSA to resolve the unverified responses as instructed

16
   The January 2002 report, INS Basic Pilot Evaluation Summary Report, was prepared by two INS
contractors. The objective of the report was to evaluate whether the Basic Pilot was operating as
intended and whether it had achieved its intended policy goals. In March 2003, the INS was transitioned
to DHS and was renamed the United States Citizenship and Immigration Service.
17
   In our September 2006 Congressional Response Report: Monitoring the Use of Employee Verification
Programs (A-03-06-36122), we noted that the Basic Pilot program lacked effective monitoring controls. In
the report, DHS staff stated that their Agency was planning to increase monitoring efforts over the Basic
Pilot program.
18
  Section 403 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. Law No.
104-208 as amended, 8 U.S.C. § 1324a note.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                          7
by SSA. 19 Additionally, 43 of the Basic Pilot users we interviewed, or 86 percent,
asserted they notified employees about tentative nonconfirmation responses or
contacted SSA to resolve tentative nonconfirmation responses. 20 In addition, the
majority of the Basic Pilot users stated their employers terminated employees if the
employees decided not to contest tentative nonconfirmation responses or if they
received final nonconfirmation responses, 21 as is allowed by law. 22 See Appendix E for
a full explanation of employer steps under each program.

PROBLEMS ENCOUNTERED WITH THE PROGRAMS
About 14 percent of the SSNVS users and 10 percent of the Basic Pilot users we
interviewed reported they experienced minor problems using the two programs. 23 In
most of these cases, the users reported that SSA and/or DHS staff were able to resolve
their problems.

SSNVS users reported: (1) difficulties uploading response data into the company’s
system; (2) rejection of data files; and (3) erroneous expiration of passwords. For
example, an SSNVS user in the service industry stated that he had received a message
from SSNVS that his password would expire in 2 weeks, but in fact the password
expired within a couple days. The user notified SSA about the problem and an SSA
official informed him that this occurred because of a system glitch. According to the
user, SSA immediately provided him with a new password and he was able to access
the system.

Basic Pilot users reported: (1) periodic lack of access to the Basic Pilot system;
(2) password problems; and (3) lack of a timely system response from DHS. For
example, a user in the food processing industry stated that DHS had taken more than
14 days to confirm the work authorization of an employee. The user notified DHS about
the delay and the issue was timely resolved.

EMPLOYERS USING OTHER VERIFICATION SERVICES
Many of the users stated their employers used more than one type of program or
service to verify employee identity and/or employment authorization. Of the

19
  The remaining SSNVS users stated their employers followed alternate procedures or did not answer
the question. See Appendix E for a full explanation of employer steps under this program.
20
  The remaining Basic Pilot users stated their employers followed alternate procedures or did not answer
the question. See Appendix E for a full explanation of employer steps under this program.
21
     We did not independently verify this information.
22
  Section 403 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. Law No.
104-208 as amended, 8 U.S.C. § 1324a note.

23
  We were unable to confirm these statements with SSA or DHS, but we plan to provide both agencies
with more details on each problem so they can appropriately review and, if necessary, modify their
systems.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                         8
50 employers using SSNVS, 30 used SSNVS exclusively while the remaining 20 used
1 or more additional verification services (i.e. SSA’s EVS for Registered Users,
telephone or fax service, and/or third-party providers for employee verification). For
example, an SSNVS user at a temporary employment agency located in Oklahoma
indicated his company also used EVS for Registered Users, the Basic Pilot, and SSA’s
telephone service for employee verification. Of the 50 employers using the Basic Pilot,
30 used the Basic Pilot exclusively while the remaining 20 used 1 or more additional
verification services. The use of multiple verification services could increase the
number of employees subject to verification. Whereas the Basic Pilot is limited to the
verification of new hires, SSNVS is able to verify all existing employees.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                          9
                                                                   Conclusion
The vast majority of the users interviewed were very satisfied with the two on-line
verification programs. The users stated these two programs were reliable and effective
tools to verify employees’ identity and employment authorization. Furthermore,
90 percent of the SSNVS users stated their employers verified the entire company
payroll, which should ensure improved accuracy of reported wages. Nonetheless, we
discovered that a significant number of Basic Pilot employers may not have been using
the program in accordance with their agreements. If DHS determines this practice of
verifying pre-employment individuals or existing employees should be allowable, DHS
may need to seek legislative changes. In addition, most of the users indicated their
employers were taking the appropriate actions when they received feedback from either
program that an employee’s information could not be verified. Finally, we learned that a
considerable number of these employers were using multiple programs to conduct
employee verifications, which may increase the verification coverage of all employees.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                      10
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Social Security Number Verification System
APPENDIC C – Basic Pilot Program
APPENDIX D – Scope and Methodology
APPENDIX E – Employer Handling of Unverified Employees




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)
                                                                   Appendix A

Acronyms
BSO              Business Services Online
CY               Calendar Year
DHS              Department of Homeland Security
DoB              Date of Birth
EIF              Employer Identification File
EIN              Employer Identification Number
EVS              Employee Verification Service
FY               Fiscal Year
INS              Immigration and Naturalization Service
MEF              Master Earnings File
MOU              Memorandum of Understanding
NWALIEN          Nonwork Alien
OIG              Office of the Inspector General
PIN              Personal Identification Number
SSA              Social Security Administration
SSN              Social Security Number
SSNVS            Social Security Number Verification Service
U.S.C.           United States Code


Forms

“A” Number       Alien Registration Number
I-94 Number      Arrival/Departure Number
Form I-551       Alien Registration Receipt Card
Form I-9         Employment Eligibility Verification Form
Form I-94        Arrival/Departure Record
Form SS-5        Application for a Social Security Number
Form W-2         Wage and Tax Statement
Forms I-766      Employment Authorization Document
and I-688B




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)
                                                                                     Appendix B
Social Security Number Verification Service
The Social Security Number Verification Service (SSNVS) is a free, on-line program
available to employers and third party submitters to verify employees’ names and Social
Security numbers (SSN). The purpose of SSNVS is to ensure employees’ names and
SSNs match the Social Security Administration’s (SSA) records prior to the submission
of their wage reports to SSA. 1 Employers and third parties must first register on-line at
SSA’s Business Services Online (BSO) website to use this service. Employers may
allow multiple users to register to use SSNVS on their behalf. Following registration,
SSA will mail an activation code 2 directly to the company’s address shown in SSA’s
Employer Identification File (EIF). 3 Once the registered employers activate SSNVS
using their Personal Identification Number (PIN) 4 and the activation code, they can start
submitting verifications. Registered employers can:
      •   Submit up to 10 employee names and SSNs (per screen) via the on-line SSNVS
          and receive immediate results; and
      •   Upload files containing up to 250,000 employee names and SSNs and usually
          receive verification results the next Government business day. This bulk
          procedure allows employers to verify an entire payroll database or verify in one
          submission the names and SSNs of a large number of newly-hired workers.




1
    Prior to June 2, 2005, SSNVS was a pilot that was restricted to a limited number of employers.
2
 The activation code is an alphanumeric code sent by SSA to the employer or registered PIN holder (if
self-employed) when access to certain services is requested. This code must be entered on the Activate
Access to BSO Service web page to enable the employer to access the requested service.
3
 The EIF is an Internal Revenue Service file that contains the Employer Identification Number (EIN) of a
business and the employer name and address associated with each EIN.
4
 The PIN is a unique value issued by SSA to the applicant at registration, which must be entered to gain
access to SSNVS.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                      B-1
SSA will return a verification code to the employer for each employee whose information
does not match SSA’s records. In addition to the verification code, SSA provides a
death indicator if the employee’s Numident 5 record includes a date of death. 6 Table B-1
provides descriptions for the SSNVS verification codes.

               Table B-1: SSNVS Verification Codes Provided to Employers
    SSNVS Code                                   Description of Code
           1           SSN not in file (never issued to anyone)
           2           Name and date of birth match; gender code does not match
           3           Name and gender code match; date of birth does not match
           4           Name matches; date of birth and gender code do not match
           5           Name does not match; date of birth and gender code not checked
           Y           Death indicator




5
 The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File in SSN order.
6
  In our September 2006 report, Effectiveness of the Young Children's Earnings Records Reinstatement
Process (A-03-05-25009), we recommended SSA modify SSNVS to detect SSNs for children under age 7
to provide appropriate notice to employers and potentially reduce the number of future Young Children’s
Earnings Record notices. The Agency agreed to implement this recommendation.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                      B-2
                                                                                     Appendix C
Basic Pilot Program
The Basic Pilot is an ongoing joint initiative between the Social Security Administration
(SSA) and the Department of Homeland Security (DHS). 1 The purpose of the Basic
Pilot is to assist employers in verifying the employment eligibility of newly-hired
employees. The President signed The Basic Pilot Program Extension and Expansion
Act of 2003 (Public Law Number 108-156) into law on December 3, 2003. This law
extended the operation of the Basic Pilot for an additional 5 years (to a total of 11 years)
and expanded the operation to all 50 States not later than December 1, 2004.

Employers and third parties must register on-line to gain access to the Basic Pilot
program. In addition, they must complete and sign a Memorandum of Understanding,
which sets forth the points of agreement between SSA, DHS, and the employer
regarding the employer's participation in the Basic Pilot. Employers and third parties
may have multiple users registered to use the Basic Pilot on their behalf.

As discussed with SSA and DHS staff, the Basic Pilot involves using the information in
government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The Social Security number (SSN) and Alien
Registration Number (“A” Number) 2 or I-94 Number (Admission Number) 3 are used for
these checks. When verifying a new employee, the employer must complete the DHS-
issued Employment Eligibility Verification Form (Form I-9) for each employee and then
enter elements of this data into the Basic Pilot within 3 days of hiring, including the
employee’s SSN, name, date of birth (DoB), and whether the new hire indicated he or
she was a United States (U.S.) citizen and, if not, the “A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DoB of newly-hired employees, regardless of citizenship. 4 When the

1
 Sections 401 and 404 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996), Pub.
Law No. 104-208 as amended, 8 U.S.C. § 1324a note.
2
  The “A” number is the 9-digit number following “A” which is shown on the “green card” or Permanent
Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment Authorization
Document (I-766 and I-688B), and on certain other immigration documents and notices. For newly
admitted immigrants, the “A” number is shown on the machine-readable immigrant visa affixed to the
foreign passport.
3
 The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The
Form I-94 shows the date the individual arrived in the United States, the “Admitted Until” date, and the
date when his or her authorized period of stay expires.
4
   In our December 2006 audit, Congressional Response Report: Accuracy of the Social Security
Administration’s Numident File (A-08-06-26100), we addressed the accuracy of the Numident File. This
file is relied on by the Basic Pilot for verification of identity and work authorization.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                           C-1
Numident shows the U.S. as the place of birth for the newly-hired employee or a code
indicating the number holder is a U.S. citizen and the new hire indicated that he/she is a
U.S. citizen, the Basic Pilot confirms employment eligibility. If the Basic Pilot system
cannot confirm employment eligibility based on the information in SSA’s database or an
“A” Number or I-94 Number was entered, the Basic Pilot system checks the data
against DHS’ database.

The employer will receive notification of “SSA tentative nonconfirmation” of employment
eligibility when the SSN, name, or DoB does not match the information in SSA’s
database or if a death indicator is present. Also, employers will receive an “SSA
tentative nonconfirmation" if the new hire indicated he or she was a U.S. citizen and
SSA’s records did not show that the person was a U.S. citizen. The employer will
receive notification of "DHS tentative nonconfirmation" of employment eligibility when
DHS’ database does not show the newly-hired noncitizen as authorized for
employment. In these cases, the employer asks the employee whether he or she
wishes to contest the tentative nonconfirmation. If contested, the employee must
contact SSA or DHS within 8 Government working days of the notification. After the
employee contacts SSA or DHS to correct the record, the employer resubmits the query
through the Basic Pilot system. If the system does not confirm employment eligibility
after the employer resubmits the query, the employer may terminate the new hire’s
employment.

Basic Pilot Verification Statistics

The Basic Pilot processed approximately 1.7 million verification requests during Fiscal
Years 2004 and 2005. The figure below shows the results of this verification process.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                       C-2
                            Basic Pilot Verification Statistics for
                                Fiscal Years 2004 and 2005



                            122,104 (7%)            25,688 (1%)


       217,199 (13%)




                                                                             1,371,356 (79%)

             Employment Authorized by SSA (includes both initial and resubmitted items)
             Tentative and Final Nonconfirmation by SSA (includes items that were not resolved)
             Employment Authorized by DHS (includes both initial and resubmitted items)
             Tentative and Final Nonconfirmation by DHS (includes items that were not resolved)




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                  C-3
                                                                      Appendix D

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures, as well as, other relevant Federal laws and regulations.

•   Reviewed Office of the Inspector General, Government Accountability Office, and
    Department of Homeland Security (DHS) reports, and other relevant documents.

•   Established accounts with the Social Security Number Verification Service (SSNVS)
    and the Basic Pilot program to gain an understanding of the registration process.

•   For SSNVS, we:
     Obtained a list of registered employers as of May 2006;
     Obtained employer feedback data;
     Identified the number of registered employers using the service in Calendar
       Years (CY) 2004 and 2005; and
     Identified the number of verifications submitted in CYs 2004 and 2005.

•   For the Basic Pilot program, we:
     Obtained a list of registered employers as of July 2006;
     Obtained employer feedback data;
     Identified the number of registered employers using the service in Fiscal Years
       (FY) 2004 and 2005; and
     Identified the number of verifications submitted in FYs 2004 and 2005.

•   For both SSNVS and the Basic Pilot, we selected a sample of 50 employers from
    each program to assess their satisfaction with the programs. We concentrated on
    those employers that submitted a large volume of verification requests during 2004
    and 2005.




Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                         D-1
•   We obtained the following for the 100 sample employers:
     Data extract from SSA’s Nonwork Alien (NWALIEN) file for Tax Years (TY) 2003
      and 2004; 1
     Data extract from SSA’s Earnings Suspense File for TY 2003; 2 and
     Data extract of earnings reporting data for TYs 2003 and 2004.

•   After reviewing the summary verification results and earnings data associated with
    each of the 100 employers, we interviewed 100 program users on issues related to
    their experiences with the application, submission, and feedback processes under
    the programs. In addition, we asked questions related to (1) the employer
    component responsible for verification, (2) the type of employee documents
    reviewed, (3) experiences with resolving unverified employee information, and
    (4) use of other verification services.

We did not perform a full review of internal controls and data reliability due to the limited
scope of our review. The purpose of our review was to assess employers’ satisfaction
with SSNVS and the Basic Pilot programs. The entities audited were the Office of
Earnings, Enumeration and Administrative Systems under the Deputy Commissioner for
Systems; the Office of Central Operations under the Deputy Commissioner for
Operations; and the Employer Wage Reporting and Relations Staff under the Deputy
Commissioner for Budget, Finance, and Management. We conducted the audit
between April and November 2006 in Philadelphia, Pennsylvania. We conducted our
audit in accordance with generally accepted government auditing standards.




1
  The NWALIEN file contains wage items for individuals who have worked with a nonwork SSN. SSA
issues nonwork SSNs to individuals who lack DHS work authorization, but have valid reasons for the
SSNs. SSA sends the NWALIEN file to DHS on an annual basis.
2
  The Earnings Suspense File is a repository of unmatched wage items that could not be posted to
individuals’ earnings records.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                     D-2
                                                                                     Appendix E

Employer Handling of Unverified Employees
Based on our interviews with Social Security Number Verification Service (SSNVS) and
Basic Pilot users, we found that many of the employers appeared to have taken
appropriate actions when they received indications of verification problems from SSNVS
and the Basic Pilot. We found 40 of the SSNVS users we interviewed indicated when
they received the unverified response, they verified the unmatched data with
employees, compared the unmatched data with personnel records, or contacted SSA to
resolve the unverified responses as outlined in the SSNVS user manual. Additionally,
we found 43 Basic Pilot users we interviewed asserted they notified employees about
tentative nonconfirmation responses or contacted SSA to help resolve tentative
nonconfirmation responses. In addition, as authorized by the Basic Pilot program, at
least 26 users admitted their employers terminated employees if the employees decided
not to contest the tentative nonconfirmation responses.

SSNVS Unverified Responses

Table E-1 summarizes the actions taken by SSNVS employers, as explained to us by
the 50 users, to resolve unverified responses. 1 As shown in the table, 40 employers
stated that to resolve unverified responses, they (1) verified the unmatched data with
the affected employees, (2) compared the unmatched data with information included in
the employer’s personnel records, or (3) contacted a SSA field office for assistance.
These actions appeared consistent with SSA’s guidance to employers on what to do if a
SSN fails to verify. 2

While 12 users indicated their employers did not take any actions against affected
employees if the unverified responses could not be resolved, 6 users asserted their
company had terminated employees in certain instances. SSA advises employers that
an unverified response from SSNVS is not a basis, in and of itself, to take any adverse
action against employees, such as termination. Further, SSA cautions employers that if
they use unverified responses to take inappropriate adverse actions against workers
they may violate State or Federal law.




1
    We were not able to confirm whether the employers took the actions noted in the table.
2
    The SSNVS User Handbook provides employers with the policies and procedures for using the service.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                    E-1
                        Table E-1: Actions Taken by SSNVS Employers
                                   for Unverified Responses
                                                                    Number of
                   Actions Taken by SSNVS Employers                 Responses
             Actions taken to resolve unverified responses
              Verified data with employee                              37
              Referred cases to clients(1)                             4
              Referred to another department for resolution            3
              Checked personnel records                                2
              Contacted SSA                                            1
                                   Total                               47(2)
             Actions taken if unverified responses were not resolved
              No action taken                                          12
              Unknown to user                                          13
              Terminated employee                                      6
              Referred to another department                           6
              Re-contacted employee                                    4
                                        (1)
              Referred case to clients                                 3
              Assigned dummy SSN (9s)                                  1
              Resubmitted the data                                     1
              Contacted SSA                                            1
                                   Total                                47
           Notes: (1) These employers were third party providers that verify their clients’ payroll.
                  (2) Three of the users did not respond to this question.

Basic Pilot Nonconfirmation Responses

Table E-2 summarizes the actions taken by Basic Pilot employers, as explained to us by
the 50 users, when they received nonconfirmation responses. 3 Based on their
responses, it appeared 42 employers were following the Basic Pilot requirements as
they provided employees with the Tentative Nonconfirmation Notice, which informs
employees of their rights under the program to contest the verification results. 4
Moreover, 26 of the users asserted their employers terminated employees if the
employees decided not to contest the tentative nonconfirmation responses. 5
Furthermore, 28 of the users stated their employers terminated employees when they
received the final nonconfirmation response from the program. Under the Basic Pilot




3
    We were not able to confirm whether the employers took the actions noted in the table.
4
 As outlined in Appendix C, employers must provide employees with the Tentative Nonconfirmation
Notice so the employees can decide whether they want to contest the verification results.
5
 If an employee decides not to contest a Tentative Nonconfirmation Notice, the Basic Pilot system
automatically converts the response to a Final Nonconfirmation.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                       E-2
program, employers can terminate an employee if the employee elects not to contest
the tentative nonconfirmation results or if they receive a final nonconfirmation
response. 6

                   Table E-2: Actions Taken by Basic Pilot Employers
                            for Nonconfirmation Responses
                                                                     Number of
                Action Taken By Basic Pilot Employers                Responses
       Action taken for tentative nonconfirmation responses
        Provided referral notice to employee                          41
        Referred case to clients(1)                                    2
        Provided referral notice to employee and contacted SSA         1
        Contacted SSA                                                  1
        No action taken                                                1
                                    Total                             46(2)
       Actions taken if tentative nonconfirmations were not contested
        Terminated employee                                           26
        Resolved case while employee continued to work                 1
                                    Total                             27(2)
       Actions taken if final nonconfirmations were received
        Terminated employee                                           28
        Denied employment (3)                                          8
        Referred employee to SSA                                       2
        Documented employee file                                       1
        Referred case to client(1)                                     1
                                    Total                             40(2)
     Notes:    (1) These employers were third party providers that verify their clients’ payroll.
               (2) The responses did not total 50 because some users did not answer all questions.
               (3) We discussed earlier in the report that using the Basic Pilot as a pre-screening tool is
               prohibited.




6
 Section 403 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996), Pub. Law No.
104-208 as amended, 8 U.S.C. § 1324a note.


Employer Feedback on SSA’s Verification Programs (A-03-06-26106)                                        E-3
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
